U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Strother v. Baldwin, No. 19-224
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 16,
2019, and placed on the Court's docket on August 20, 2019. The response of the United States is
now due, after one extension, on October 21, 2019. We respectfully request, under Rule 30.4 of
the Rules of this Court, a further extension of time to and including November 20, 2019, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0224
STROTHER, BRYAN JAMES
DAVID S. BALDWIN, ADJUTANT GENERAL, CA.
ARMY NATIONAL GUARD, ET AL.

DANIEL C. WILLMAN
P.O. 606
PINCKNEY, MI 48169
248-231-0705
DANIELCWILLMAN@AOL.COM

